                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

)I   Case Number: I06100039                                                                     Page 1 of 1



          We investigated allegations of fiaud, abuse, and mismanagement of NSF funds at Fort Valley State
          University (FVSU), focusing on a single NSF award.' We requested award-related documentation
          fiom FVSU and after reviewing the documentationand conducting interviewswith FVSU's staff, we
          determined FVSU submitted false certifications and false claims to NSF; therefore, we referred the
          matter to the United States Attorney's Office under the Civil False Claims Act.

          A settlement agreement2between the United States and Georgia's Board of Regents was signed on
          January 8,20 10, which called for the return of $500,000 (split into two payments) and a mandatory
          5-year compliance agreement3,which was incorporatd by reference. FVSU made its first payment
          on January 22,20 10, and the second payment is expected by July 30,20 10. NSF OIG will monitor
          the compliance agreement for its duration.

          Finally, during the course of our investigation we identified a possible related conflict-of-interest
          (COI) involving a former NSF program director: who was assigned to NSF under the
          Intergovernmental Personnel Act (IPA). We issued a memorandum to NSF and based on our
          recommendation, NSF agreed to notify the program director that she violated COI rules during
          hisher time as an NSF IPA.

                     Accordingly, this case is closed.




           1


               See Tab 1




I'
 NSF OIG Form 2 (1 1/02)
                                SETTLEMENT AGREEMENT

                                         I. PARTIES

      Thts Settlement Agreement (hereinafier "Agreement") is made and entered 'nto
between the United States of America, by and through the United States Attorney for

the Middle District of Georgia (USAO-MDGA), adlng through the United States

Department of Justice and on behalf of the Office of Inspector General of the National

Science Foundation (NSF-OIG), collectively the ("United Statesn); and the Board of

Regents of the University System of Georgia CBoard of Regent6 on behalf of Fort

Valley State University ("FVSU). The United States, Board of Regents, and FVSU are

hereinafter odlectively referred to as "theParties".

                                       It. PREAMBLE

      As a preamble to this Agreement, the Parties agree to the following:




   -
         A        The United States contends that it has certain civil claims against FVSU




---
for alleged conduct during the relevant time perlod, from June i,2001, through April 30,

2007, In which false certifications were made, In violation of the False Claims Act, 31

U.S.C.       3720 et seq. (hereinafter 'FCA"). These alleged false ~e~fications
                                                                             were made

by N S U personnel and senior administrators in connection with



(((hereinahr
referred to as the' "Covered Conduct'). The Board of Regents and FVSU dlspute these
claims.

         0.   ,   The FCA provides that. any person, who, in reckless disregard or
